No. 20-1501

 

 

In THE
Supreme Court of the United States

ROMAN CATHOLIC DIOCESE OF ALBANY, et al.,

Petitioners,
Vv.

Linpa A. LACEWELL, SUPERINTENDENT, NEW YORK
STATE DEPARTMENT OF FINANCIAL SERVICES, e¢ al.,

Respondents.

On Petition for a Writ of Certiorari
to the Supreme Court of New York,
Appellate Division, Third Department

BRIEF FOR AMICI CURIAE THE CHURCH OF
JESUS CHRIST OF LATTER-DAY SAINTS;
THE UNITED STATES CONFERENCE OF

CATHOLIC BISHOPS; ETHICS AND
RELIGIOUS LIBERTY COMMISSION OF
THE SOUTHERN BAPTIST CONVENTION;
THE LUTHERAN CHURCH-MISSOURI SYNOD;
THE GENERAL CONFERENCE OF THE
SEVENTH-DAY ADVENTISTS;

THE JURISDICTION OF THE ARMED FORCES
AND CHAPLAINCY OF THE ANGLICAN
CHURCH IN NORTH AMERICA
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,924 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 26, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
